IN THE SUPREME COURT OF THE UNITED STATES
____________
No. ___
____________
MARTIN A. ARMSTRONG,
Applicant,
v.
SECURITIES AND EXCHANGE COMMISSION,
UNITED STATES COMMODITY FUTURES TRADING COMMISSION,
ALAN M. COHEN, in his capacity as receiver, and
THE UNITED STATES OF AMERICA
Respondents.
________________________
APPLICATION TO THE HON. RUTH BADER GINSBURG
FOR AN EXTENSION OF TIME WITHIN WHICH TO FILE
A PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE SECOND CIRCUIT
________________________
Pursuant to Supreme Court Rule 13(5), Martin A. Armstrong hereby moves for
an extension of time of 60 days, to and including September 20, 2019, for the filing of
a petition for a writ of certiorari. Unless an extension is granted, the deadline for
filing the petition for certiorari will be July 22, 2019.
In support of this request, Applicant states as follows:
1.

The U.S. Court of Appeals for the Second Circuit rendered its decision

on April 23, 2019 (Exhibit 1). This Court has jurisdiction under 28 U.S.C. §1254(1).
2.

In September 1999, a federal grand jury indicted Armstrong for

securities fraud and other related charges. See Sealed Indictment, United States v.
Armstrong, No. 99-cr-997 (S.D.N.Y. Sept. 30, 1999), Dkt. 5. At the same time, the
SEC and CFTC filed civil enforcement actions against Armstrong and two of his

companies, Princeton Economics International, Ltd. (PEIL), and Princeton Global
Management (PGM). See Complaint, SEC v. PEIL, No. 99-cv-9667 (S.D.N.Y. Sept.
13, 1999), Dkt. 1; Complaint, CFTC v. PGM, No. 99-cv-9669 (S.D.N.Y. Sept. 13, 1999),
Dkt. 1.
3.

Upon initiating the civil enforcement actions, the SEC and CFTC

obtained an ex parte temporary restraining order, later converted into a preliminary
injunction, freezing Armstrong’s companies’ assets—save for “reasonable attorney’s
fees not to exceed $10,000”—and establishing a receiver to preserve corporate assets.
SEC v. PEIL, 84 F. Supp. 2d 443, 444 (S.D.N.Y. 2000); see SEC v. PEIL, 2001 WL
237376, at *1 n.2 (S.D.N.Y. Mar. 9, 2001). The order “required Armstrong and his
agents to provide the Receiver with ‘all assets of the corporate defendants which they
have in their current possession, custody, or control.’” SEC v. PEIL, 84 F. Supp. 2d
447, 448 (S.D.N.Y. 2000).
4.

Pursuant to that order, the receiver demanded that Armstrong turn over

all items in his possession that allegedly constituted corporate property. Armstrong
turned over everything in his possession and insisted that he did not have any of the
remaining demanded assets. He also asserted his Fifth Amendment privilege against
self-incrimination in light of the pending criminal charges. The district court rejected
Armstrong’s arguments, adjudged him in contempt, and ordered him detained “until
he agree[d] to deliver the missing items.” See SEC v. PEIL, 7 F. App’x 65, 66 (2d Cir.
2001) (dismissing appeal from sanctions order for lack of appellate jurisdiction).

2

5.

Notwithstanding the Recalcitrant Witness Statute, see 28 U.S.C.

§1826(a)(2) (“in no event shall such confinement exceed eighteen months”),
Armstrong remained confined in New York City’s Metropolitan Correctional Center
for civil contempt for the next seven-and-a-half years.
6.

In the interim, the court-appointed receiver obtained a court order

compelling the return of retainer payments Armstrong had made to law firms before
the restraining order went into effect, which the receiver alleged had been made using
corporate funds. 84 F. Supp. 2d at 446-47. The receiver also secured an order placing
a beach house in the receiver’s control, over Armstrong’s objection that the house was
personal property. 84 F. Supp. 2d at 448-51.1 Still confined in the Metropolitan
Correctional Center, Armstrong sought a hearing in his criminal case under United
States v. Monsanto, 491 U.S. 600 (1989), and United States v. Monsanto, 924 F.2d
1186

(2d

Cir.

1991)

(en

banc),

which

hold

that

“the

fifth

and

sixth

amendments … require an adversary post-restraint, pretrial hearing in order to
continue a restraint ordered ex parte … of assets needed to retain counsel of choice,”
924 F.2d at 1188, but the district court denied the motion. See Order, United States
v. Armstrong, No. 99-cv-997 (S.D.N.Y. June 20, 2003), Dkt. 82.
7.

Between 2006 and 2009, several relevant acts took place. First, after

being placed in the Metropolitan Correctional Center’s Special Housing Unit (the

The receiver ultimately sold the beach house while Armstrong was serving his
criminal sentence. See Order, SEC v. PEIL, No. 99-cv-9667 (S.D.N.Y. Apr. 27, 2012),
Dkt. 473.
1

3

“hole”), Armstrong pled guilty to the single conspiracy count in the criminal case. See
Minute Entries, United States v. Armstrong, No. 99-cr-997 (S.D.N.Y. Aug. 17, 2006).
He was sentenced to the statutory maximum of 60 months in prison, to be
“commence[d] as soon as the contempt case … is resolved,” plus three years
supervised release. Judgment, United States v. Armstrong, No. 99-cr-997 (S.D.N.Y.
Apr. 10, 2007), Dkt. 150.

He was separately ordered to pay $80,000,101.00 in

restitution, which he paid in full upon his ultimate release from prison. Satisfaction
of Judgment, United States v. Armstrong, No. 99-cr-997 (S.D.N.Y. Mar. 16, 2012),
Dkt. 150. Second, without admitting or denying the allegations, Armstrong agreed
in the civil enforcement actions to be permanently enjoined from further violations of
the applicable securities and commodity trading laws. CFTC v. PGM, 2008 WL
6926640 (S.D.N.Y. June 24, 2008) (judgment and consent order against Armstrong);
see also CFTC v. PGM, 2009 WL 3241527 (S.D.N.Y. July 31, 2009) (judgment and
consent order against PGM and PEIL).
8.

In addition, the receiver submitted a proposed plan in the consolidated

enforcement actions in June 2008. The court then set a Bar Date, “i.e., the deadline
by which persons and entities were required to raise objections to the Plan and to
assert claims to receivership property, or forever be barred from doing so.” See Ex. 1
at 3. Armstrong, still in prison, timely “filed a proof of claim” via counsel that “asked
the court ‘to direct the Receiver to refrain from liquidating or abandoning any
physical items’ in the storage lockers until Armstrong had a chance to identify any
personal property.” Id. But the court never adjudicated Armstrong’s claim. Instead,

4

the court approved the Plan of Final Distribution, which instructed the receiver to
sell all remaining non-cash assets. SEC v. PEIL, 2008 WL 7826694 (S.D.N.Y. Sept.
30, 2008).
9.

In January 2012, the receiver auctioned off several items of Armstrong’s

personal property, including personal property Armstrong had acquired prior to any
allegedly unlawful conduct.
10.

In August 2017, nearly a decade after filing the plan of final distribution,

the receiver submitted a final report and motion asking the court to wind down the
receivership, i.e., to enjoin all remaining claims, discharge the receiver, and close the
civil cases. See SEC v. PEIL, No. 99-cv-9667 (S.D.N.Y. Aug. 4, 2017), Dkts. 475-85.
Armstrong opposed the motion.

He argued that the receiver had not returned

“personal property” under its control, and so the receivership could not be wound up
until that occurred. Objections of Defendant Martin Armstrong 3, SEC v. PEIL, No.
99-cv-9667 (S.D.N.Y. Aug. 31, 2017), Dkt. 490 (“Objections”). He further argued that
“[t]he Receiver is seeking to distribute proceeds from untainted assets that should
have been available to Armstrong to retain counsel of choice” in the criminal case. Id.
As Armstrong explained, in Luis v. United States, 136 S. Ct. 1083 (2016), this Court
“held that it is a denial of the Sixth Amendment right to counsel of choice to deny a
defendant access to untainted assets.” Objections 3. The district court rejected all of
Armstrong’s arguments, ruling that Armstrong waived any right to oppose the winddown of the receivership “by not objecting” to the Plan of Final Distribution “prior to
its 2008 approval.” SEC v. PEIL, 2017 WL 6729861, at *1 (S.D.N.Y. Oct. 6, 2017).

5

11.

The Second Circuit affirmed. First, the court concluded that the district

court was under no “obligation” to provide a hearing on the question of whether the
receiver obtained and distributed property that properly belonged to Armstrong.
Ex. 1 at 5. According to the Second Circuit, “Armstrong never affirmatively moved
or otherwise requested that the District Court identify some receivership assets as
his personal property, hold a hearing on this issue, or order the return of his personal
property.” Id. As to the property in the storage lockers, the court held that “the
District Court reasonably found that the Receiver gave Armstrong an adequate
opportunity to reclaim [his] personal possessions.” Id. The court accordingly held
that the District Court “did not exceed the bounds of [his] discretion in authorizing
case closure over Armstrong’s objection that some of his personal property had not
been returned to him.” Id. at 4. The court likewise affirmed the decision not to afford
Armstrong a jury trial, concluding that “Armstrong explicitly waived the right to a
jury trial in the Final Consent Judgment.” Id. at 6.
12.

The Second Circuit made no mention of Armstrong’s argument that the

court violated his constitutional rights by refusing to hold a hearing on the question
of whether the assets and funds the government seized prior to trial—which left
Armstrong unable to pay counsel of choice—were actually untainted personal
property.

That is because, prior to briefing on the merits, the Second Circuit

dismissed Armstrong’s consolidated appeals “to the extent [they sought] to challenge”
either “his criminal conviction or sentence” or “the final distribution plan with respect
to corporate assets.” Motion Order, CFTC v. PGM, No. 17-3576 (2d Cir. Apr. 11,

6

2018), Dkt. 77. In support of that decision, the Second Circuit cited two district court
orders, the first of which held that Armstrong “does not have standing to challenge
the settlement distribution” (id. (quoting Order, No. 04-cv-3091 (2d Cir. July 21,
2004))), and the second of which held that “challenges to civil proceedings are
‘precluded by the terms of the consent judgment, which includes an explicit waiver of
the right to appeal” (id. (quoting Order, No. 08-cv-5902 (2d Cir. Apr. 10, 2009))).
13.

Applicant’s counsel, George W. Hicks, Jr., was not involved in the

extensive proceedings below and was only recently retained. Applicant’s counsel
requires additional time to review the substantial record and prior proceedings in
this case in order to prepare and file a petition for certiorari that best presents the
arguments for this Court’s review.
14.

Applicant’s counsel also has substantial briefing and argument

obligations between now and July 22, including a brief for appellees in the
consolidated cases of In re Deepwater Horizon, Nos. 18-31292 & 19-30001 (5th Cir.)
(due June 28); a brief for petitioner in Retirement Committee of IBM v. Jander, No.
18-1165 (U.S.) (due July 18); and a brief for appellant in United States v. North, No.
19-1190 (3d Cir.) (due July 22).
WHEREFORE, for the foregoing reasons, Applicant requests that an extension
of time to and including September 20, 2019, be granted within which Applicant may
file a petition for a writ of certiorari.

7

Respectfully submitted,
/s/ George W. Hicks, Jr.
GEORGE W. HICKS, JR.
Counsel of Record
KIRKLAND & ELLIS LLP
1301 Pennsylvania Avenue, NW
Washington, DC 20004
(202) 389-5000
george.hicks@kirkland.com
Counsel for Applicant
June 27, 2019

8

